                 SENSITIVE SECURITY INFORMATION
  DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General

       TSA’s Management of Aviation Security 

     Activities at Jackson-Evers International and 

                 Other Selected Airports 


                (Unclassified Summary) 





OIG-08-90                                         September 2008
                                                                    Office of Inspector General

                                                                    U.S. Department of Homeland Security
                                                                    Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

In response to a congressional request from U.S. Representative Bennie Thompson, Chairman of the
House Committee on Homeland Security, our report addresses the Transportation Security
Administration’s (TSA) management of its aviation security activities at the Jackson-Evers
International Airport in Mississippi. We also addressed the aviation security activities at five other
airports as a means of comparison. We based this review on interviews with TSA employees,
federal, state, and local law enforcement officers, commercial airline carrier employees, airport
authority staff, direct observations, statistical analysis, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 


Unclassified Summary ...........................................................................................................................1 


Background ............................................................................................................................................2 


Scope, Purpose, and Methodology.........................................................................................................5 


Appendices
     Appendix A:             Congressional Request Letter.................................................................................7 

     Appendix B:             Major Contributors to this Report ..........................................................................9 

     Appendix C:             Report Distribution...............................................................................................10 


Abbreviations
     DHS                     Department of Homeland Security 

     JAN                     Jackson-Evers International Airport 

     LEO                     Law Enforcement Officer 

     OIG                     Office of Inspector General 

     TSA                     Transportation Security Administration                           

     TSO                     Transportation Security Officer   

OIG 

Department of Homeland Security
Office of Inspector General

Unclassified Summary
                       We reviewed the Transportation Security Administration’s (TSA)
                       management of aviation security activities at Jackson-Evers International and
                       other selected airports as requested by United States Representative Bennie
                       Thompson, Chairman of the House Committee on Homeland Security.
                       Specifically, we assessed (1) whether existing processes, which authorize
                       certain individuals to fly while armed, need strengthening; (2) whether
                       Transportation Security Officers (TSO) received advanced notice of any
                       internal TSA covert testing; and, (3) whether TSOs report the discovery of
                       firearms and other dangerous prohibited items as required by TSA policy and
                       directives.

                       At the request of Chairman Thompson, we expanded our review in November
                       2007 and investigated whether TSA compromised any covert testing
                       conducted by another federal government entity.

                       TSA has made progress toward improving its internal covert testing.
                       Increased resources have allowed the administration to adjust its testing
                       methodology, use sophisticated test equipment, and employ trend analysis to
                       ensure greater testing integrity.

                       However, additional work is necessary. Most notably, TSA can take steps to
                       improve security activities within commercial aviation by eliminating the
                       vulnerabilities associated with the current flying armed processes,
                       strengthening covert testing procedures, and improving its processes for
                       reporting security incidents.

                       Given the size and scope of its airport operations, we are not suggesting that
                       these issues are prevalent across TSA. However, we note some areas of
                       concern that highlight the need for improvement. Therefore, we are making
                       12 recommendations to improve TSA’s management of aviation security.
                       These recommendations address near- and long-term solutions to deficiencies
                       we observed. TSA should work to address the near- and long-term
                       recommendations simultaneously to strengthen its overall layered security
                       approach.




    TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                           (Unclassified Summary)

                                                      Page 1
                      In response to our report, TSA has proposed plans and actions that, once
                      implemented, will reduce a number of the deficiencies we identified. TSA
                      concurred with nine recommendations, concurred in part with two
                      recommendations, and did not concur with one recommendation, which we
                      have since modified.

Background
                      On September 10, 2006, The Clarion-Ledger, a local Mississippi newspaper,
                      alleged in the article “How Safe Are We?” that the security and integrity of the
                      passenger screening process at the Jackson-Evers International Airport (JAN)
                      was being compromised routinely by TSA employees.

                      Allegations in the article, made by current and former TSA employees at JAN,
                      concerned three areas:

                           •	 First, that TSOs at JAN received advanced warning of covert testing,
                              even though this testing is to assess airport security operations without
                              notice.
                           •	 Second, that JAN management disregarded standard operating
                              procedures by not reporting incidents involving dangerous or deadly
                              items discovered at the airport screening checkpoints.
                           •	 Finally, that a passenger at JAN was allowed to board a commercial
                              aircraft armed on at least six occasions, even though this individual did
                              not meet relevant flying armed criteria as set forth in the U.S. Code of
                              Federal Regulations.

                      On September 11, 2006, Representative Bennie Thompson requested that we
                      review the allegations mentioned in The Clarion-Ledger article. On
                      September 12, 2006, Representative Thompson also sent a letter notifying
                      TSA’s Assistant Secretary of his request. On October 4, 2006, we referred
                      this matter to TSA’s Office of Inspection for review. On
                      October 6, 2006, Representative Thompson asked that we reconsider our
                      decision, noting that these allegations raised concerns about the integrity of
                      specific processes and protocols across all of TSA. A copy of the
                      October 6, 2006, request letter is in Appendix A. After reviewing the
                      subsequent request, we agreed to conduct a review of the allegations.

                      During discussions with Chairman Thompson and his staff, we also agreed to
                      broaden the scope of our review and address four questions:




   TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                          (Unclassified Summary)

                                                     Page 2
                        •	 Did TSOs at JAN receive any advanced notice of internal TSA covert
                           testing being conducted?
                        •	 Did TSOs report the discovery of firearms and other dangerous or
                           deadly items as required by TSA policies and directives?
                        •	 Do existing processes, which authorize certain individuals to fly
                           armed, need strengthening? and
                        •	 Did TSA compromise any covert testing conducted by another federal
                           government entity?

                   While each question is distinct, all deal with issues concerning the integrity of
                   an airport’s sterile environment – the controlled portion of an airport that is
                   only accessible by screened or authorized individuals. Figure 1 shows the
                   sterile and non-sterile airport environments.

 Figure 1: Sterile and Non-sterile Airport Environment




                                                                  STERILE SIDE                STERILE SIDE

                                                              RESTRICTED ACCESS

                                                                   Airplane Gates
                             STERILE SIDE


           Screening Checkpoint                                 NON-STERILE SIDE


                                                                       PUBLIC
                                                                       ACCESS

                                                                     Ticketing
                                                                   Baggage Claim
                                                                      Parking
                  STERILE SIDE




                   In addition to our review, TSA’s Office of Inspection conducted two internal
                   reviews pertaining to these allegations. The first review, completed in


TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                       (Unclassified Summary)

                                                  Page 3
                            September 2006, addressed the issue regarding an individual boarding a
                            commercial aircraft while armed. The second review, completed in
                            November 2006, focused on determining whether JAN’s Federal Security
                            Director specifically compromised the integrity of the internal TSA covert
                            tests.

                            Ensuring the integrity of our nation’s transportation systems, including the
                            sterile environment of all airports, remains the principal concern of TSA, and
                            any compromises to its security are serious.

          TSA’s Flying Armed Program
                            TSA’s Office of Law Enforcement/Federal Air Marshal Service and the
                            Office of Security Operations have responsibility for the Law Enforcement
                            Officers Flying Armed Program. Title 49, Section 1544 of the U.S. Code of
                            Federal Regulations, Aircraft Operator Security: Air Carriers and
                            Commercial Operators, provides for the authorization of select law
                            enforcement officers (LEO) to fly commercially while armed, providing they
                            satisfy certain eligibility requirements.

                            To meet these requirements, an individual must:

                                 •	 Be a federal LEO or a full time municipal, county, or state LEO who is
                                    a direct employee of a government agency;
                                 •	 Be sworn and commissioned to enforce criminal statutes or
                                    immigration statutes;
                                 •	 Be authorized by the employing agency to have the weapon in
                                    connection with assigned duties;
                                 •	 Have completed the training program “Law Enforcement Officers
                                    Flying Armed;” and
                                 •	 Comply with all appropriate notification requirements as set forth in
                                    the regulations.1

                            Compliance with federal regulations requires that each party involved, the
                            LEO, the aircraft operator, and TSA, satisfy specific responsibilities so that a
                            LEO can access the sterile area with their firearm and board the aircraft to
                            meet the LEO’s mission requirements.

                            All armed LEOs, upon arrival at an airport, must identify themselves to the
                            aircraft operator by presenting their credentials and badge. For state, county,
                            or municipal LEOs, they must also present an “original letter of authority,

1
    49 CFR 1544.219 (a)(1), 49 CFR 1544.219 (a)(2), 49 CFR 1544.219 (a)(3)



         TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                                (Unclassified Summary)

                                                           Page 4
                            signed by an authorizing official” that confirms the state or local LEO’s need
                            to travel armed and the details of their itinerary.2

                            The aircraft operator is then required to review the officer’s badge,
                            credentials, authorizing letter if applicable, and determine whether the officer
                            has completed the official Law Enforcement Officers Flying Armed training.
                            The training is required for all federal, state, or local LEOs before they are
                            authorized to fly armed.3 The training acquaints the officer with the protocols
                            for handling dangerous or prohibited items, prisoner transport, as well as
                            information on avoiding situations that could affect the officer’s ability to
                            complete their mission.

                            To facilitate an armed LEO’s authorized access to a sterile area, TSA has
                            established an alternative process that allows officers to bypass regular
                            passenger screening operations.

Scope, Purpose, and Methodology
                            We assessed TSA’s management of its aviation security activities at JAN.
                            Our assessment focused on TSA’s:

                                 •   Authorization of certain individuals to fly armed;
                                 •   Covert testing of its airport security operations; and
                                 •   The process of reporting security incidents that occur at an airport

                            To accomplish our objectives, we also reviewed the management of aviation
                            security operations at five other airports, including Baltimore/Washington
                            International Airport in Maryland, Charlotte-Douglass International Airport in
                            North Carolina, Dulles International Airport in Virginia, Lubbock
                            International Airport in Texas, and Ronald Reagan Washington National
                            Airport in Virginia.

                            We chose three of the airports because they processed a large volume of
                            individuals flying armed. We chose one of the airports because it closely
                            mirrored the size and scope of operations at JAN. While every airport is
                            unique, these additional site visits provided us with a better overall
                            understanding of TSA operations with respect to these assessed areas.

                            At each airport, we met with relevant TSA field personnel, including the
                            Federal Security Directors, the Assistant Federal Security Directors, Security

2
    49 CFR 1544.219(a)(3)(iii)
3
    49 CFR 1544.219(a)(1)(iv)



         TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                                (Unclassified Summary)

                                                           Page 5
                   Managers, and TSOs. We also met with a number of TSA’s partners,
                   including each airport authority and several commercial airline
                   representatives. Each partner has some operational nexus to our three areas.

                   We interviewed more than 160 people including TSA personnel from TSA
                   headquarters, the Office of Inspection, the Office of Law Enforcement, the
                   Office of Security Operations, the Freedom Center, formerly the
                   Transportation Security Operations Center, and TSOs in the field. We also
                   spoke with personnel from U.S. Immigration and Customs Enforcement’s
                   Fraudulent Document Laboratory, Federal Law Enforcement Training Center,
                   and DHS’ Office of Operations Coordination and Planning.

                   We spoke with 43 LEOs from 17 different federal, state, and local law
                   enforcement agencies. Each officer had experience dealing with the flying
                   armed process.

                   We reviewed relevant laws, regulations, policies, procedures, statistical
                   information, and airport practices related to these three areas. Given the size
                   and scope of TSA’s airport operations, we are not suggesting these issues are
                   prevalent across TSA. However, we note some areas of concern that highlight
                   the need for some systemic internal assessments.

                   Our fieldwork began in February 2007 and concluded in June 2007. At the
                   request of Chairman Thompson, we expanded our review in November 2007
                   and investigated whether the TSA compromised any covert testing by another
                   federal government entity. We initiated this review under the authority of the
                   Inspector General Act of 1978, as amended, and according to the “Quality
                   Standards for Inspections,” issued by the President’s Council of Integrity and
                   Efficiency.




TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                       (Unclassified Summary)

                                                  Page 6
Appendix A
Congressional Request Letter




     TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                            (Unclassified Summary)

                                                       Page 7
Appendix A
Congressional Request Letter




     TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                            (Unclassified Summary)

                                                       Page 8
Appendix B
Major Contributors to this Report



                        Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security,
                        Office of Inspector General, Office of Inspections

                        Angela E. Garvin, Senior Inspector, Department of Homeland Security, Office
                        of Inspector General, Office of Inspections

                        Ryan Carr, Inspector, Department of Homeland Security, Office of Inspector
                        General, Office of Inspections




     TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                            (Unclassified Summary)

                                                       Page 9
Appendix C
Report Distribution


                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretary
                        Director, GAO/OIG Liaison Office
                        Assistant Secretary for Policy
                        Assistant Secretary for Transportation Security Administration
                        Assistant Secretary for Public Affairs
                        Assistant Secretary for Legislative Affairs
                        Director of Operations Coordination
                        TSA Audit Liaison

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as appropriate




     TSA’s Management of Aviation Security Activities at Jackson-Evers International and Other Selected Airports
                                            (Unclassified Summary)

                                                      Page 10
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal
or noncriminal misconduct relative to department programs or operations:

   •    Call our Hotline at 1-800-323-8603;
   •    Fax the complaint directly to us at (202) 254-4292;
   •    Email us at DHSOIGHOTLINE@dhs.gov; or
   •	   Write to us at: 

           DHS Office of Inspector General/MAIL STOP 2600 

           Attention: Office of Investigations – Hotline 

           245 Murray Drive, SW, Building 410 

           Washington, DC 20528 


The OIG seeks to protect the identity of each writer and caller.
